<html>
<title> - MENTORING, TRAINING, AND APPRENTICESHIPS FOR STEM EDUCATION AND CAREERS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                MENTORING, TRAINING, AND APPRENTICESHIPS
                     FOR STEM EDUCATION AND CAREERS

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 15, 2018

                               __________

                           Serial No. 115-48

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 29-935 PDF                 WASHINGTON : 2018              
 
 
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY McNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
JIM BANKS, Indiana                   COLLEEN HANABUSA, Hawaii
ANDY BIGGS, Arizona                  CHARLIE CRIST, Florida
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
RALPH LEE ABRAHAM, Louisiana         SUZANNE BONAMICI, Oregon
DANIEL WEBSTER, Florida              AMI BERA, California
JIM BANKS, Indiana                   DONALD S. BEYER, JR., Virginia
ROGER W. MARSHALL, Kansas            EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas



                            C O N T E N T S

                           February 15, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements


Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     4
    Written Statement............................................     6

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     9
    Written Statement............................................    11

Statement by Representative Daniel Lipinski, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    13
    Written Statement............................................    15

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives
    Written Statement............................................    17

                               Witnesses:

Dr. Victor R. McCrary, Vice President, Research and Economic 
  Development and Professor of Chemistry, Morgan State 
  University; Member, National Science Board and Chair, Task 
  Force on the Skilled Technical Workforce
    Oral Statement...............................................    19
    Written Statement............................................    21

Dr. John Sands, Department Chair, Computer Integrated 
  Technologies, Moraine Valley Community College; Director and 
  Principal Investigator, Center for Systems Security and 
  Information Assurance
    Oral Statement...............................................    41
    Written Statement............................................    43

Mr. Montez King, Executive Director, National Institute of 
  Metalworking Skills
    Oral Statement...............................................    50
    Written Statement............................................    52

Dr. John Bardo, President, Wichita State University
    Oral Statement...............................................    56
    Written Statement............................................    58

Discussion.......................................................    69


             Appendix I: Answers to Post-Hearing Questions

Dr. Victor R. McCrary, Vice President, Research and Economic 
  Development and Professor of Chemistry, Morgan State 
  University; Member, National Science Board and Chair, Task 
  Force on the Skilled Technical Workforce.......................    88

Dr. John Sands, Department Chair, Computer Integrated 
  Technologies, Moraine Valley Community College; Director and 
  Principal Investigator, Center for Systems Security and 
  Information Assurance..........................................    99

Mr. Montez King, Executive Director, National Institute of 
  Metalworking Skills............................................   105

Dr. John Bardo, President, Wichita State University..............   110


                MENTORING, TRAINING, AND APPRENTICESHIPS



                     FOR STEM EDUCATION AND CAREERS

                              ----------                              


                      THURSDAY, FEBRUARY 15, 2018

                  House of Representatives,
            Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:11 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barbara 
Comstock [Chairwoman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Smith. [Presiding] The Subcommittee on Research 
and Technology will come to order. Without objection, the Chair 
is authorized to declare recesses of the committee at any time.
    Good morning to everyone here, and welcome to today's 
hearing entitled, ``Mentoring, Training, and Apprenticeships 
for STEM Education and Careers.''
    Before I recognize myself for my opening statement, let me 
explain to all present that our Chairwoman, Barbara Comstock, 
is stuck in traffic and I don't think is even across the bridge 
yet, so we're going to go on and start. We have other 
individuals caught up in traffic as well. All that is probably 
compounded by the fact that we're starting an hour earlier than 
normal because this is a day where a lot of Members are leaving 
town in a few hours.
    I still think it's important for us to get started, and as 
soon as Barbara Comstock, the Chairwoman, arrives, she'll have 
an opening statement. As soon as Mr. Lipinski arrives, he'll 
have a statement as the Ranking Member. And I'm going to go on 
and give my opening statement just so we can get started and 
introduce you all, but at various points we might be 
interrupted as individuals arrive and have opening statements.
    This hearing continues the Science Committee's work on 
STEM. The STEM Education Act of 2015 updated the definition of 
STEM to include computer science. And the 2017 American 
Innovation and Competitiveness Act strengthened external 
stakeholders' roles in setting STEM priorities.
    Most recently, the Committee and the full House approved 
several bipartisan bills aimed at boosting students' interest 
in STEM subjects and opportunities for our military veterans 
and for women and underrepresented minorities, starting in 
kindergarten.
    Apprenticeships, mentoring, and on-the-job training are 
proven ways to meet workforce needs. I look forward to hearing 
from our witnesses about the potential for using these 
workforce development methods to boost STEM education and 
careers.
    According to the National Science Board's most recent 
Science and Engineering Indicators report, the number of U.S. 
jobs that require science, technology, engineering, math, and 
computer skills has grown nearly 34 percent in the past decade. 
STEM workforce demand is forecast to increase steadily for 
years to come. Filling our STEM workforce needs, from 
certificate-level technical occupations to Ph.D.'s, is 
essential for our economic competitiveness.
    STEM jobs are growing in every sector of our economy, from 
the shop floors in advanced manufacturing, to computer 
programming for our huge service industry sector, to 
cybersecurity for every public and private computer network. 
According to a recent report from Brookings, half of all STEM 
jobs are available to workers without a four-year college 
degree, and these jobs pay a wage ten percent higher than jobs 
with similar educational requirements. Filling the workforce 
pipeline with qualified STEM workers at every level is crucial 
for our future economic prosperity.
    The innovative workforce training programs in which our 
witnesses are involved can provide new opportunities for STEM 
education and training and encourage young people to pursue 
STEM-based careers. Successful workforce development programs 
extend beyond the four walls of classrooms and laboratories. 
Partnerships between industry and academia can create new ways 
for young people to pursue STEM careers and boost formal 
education and training with on-the-job work experiences.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Chairman Smith. That concludes my opening statements, and 
I'm going to check to see what we want to do on the minority 
side. You want to just wait for Lipinski or do you want to----
    Ms. Bonamici. Mr. Chairman, if we could please wait for Mr. 
Lipinski----
    Chairman Smith. Okay.
    Ms. Bonamici. --to deliver the opening statement when he 
arrives.
    Chairman Smith. Okay.
    Ms. Bonamici. Thank you.
    Chairman Smith. We'll----
    Ms. Bonamici. I yield back.
    Chairman Smith. --wait for the gentleman from Illinois to 
arrive, but I'd like to go on and introduce our witnesses so 
we'll be ready to start.
    Our first witness today is Dr. Victor McCrary, Vice 
President of Research and Economic Development and Professor of 
Chemistry at Morgan State University. In this role, Dr. McCrary 
and his team focus on developing a university-wide research 
ecosystem, increasing external support for the faculty 
research, and championing an entrepreneurial culture among 
faculty and students. Dr. McCrary is also a member of the 
National Science Board and Chair of the Task Force on the 
Skilled Technical Workforce. With the NSB, Dr. McCrary recently 
proposed the blue-collar STEM initiative to explore the 
technical skills required by the Nations' workforce which do 
not necessitate pursuing a traditional four-year college 
degree.
    Dr. McCrary earned a Bachelor of Arts in chemistry from the 
Catholic University of America and a Master of Science and 
executive master's of engineering from the University of 
Pennsylvania. He also earned a Ph.D. in physical chemistry from 
Howard University.
    Dr. Sands is our second witness, and he is the Department 
Chair of Computer Integrated Technologies at Moraine Valley 
Community College. Dr. Sands also serves as the Director and 
Principal Investigator for the Center for Systems Security and 
Information Assurance, where he and his team study the 
technology workforce needs both nationally and in the local 
Chicago metropolitan region in Ranking Member Lipinski's 
district.
    Dr. Sands earned a Bachelor of Arts in communications from 
Chicago State University and a master of arts in human 
performance and testing from Governor State University. He also 
earned his Ph.D. in education from Colorado State University.
    Our third witness today is Mr. Montez King, Executive 
Director of the National Institute of Metalworking Skills 
(NIMS), developing national standards and competency-based 
credentials in manufacturing trades. In this role, Mr. King is 
responsible for overseeing the administration, programs, and 
strategic plan of the organization.
    Prior to joining NIMS, Mr. King served as Training and 
Technology Manager for Magna International, one of the world's 
largest OEM automotive parts manufacturers. In October 2017, he 
was appointed to the President's Task Force on Apprenticeship 
Expansion. Mr. King began his career at Teledyne Energy Systems 
as a Machinist Apprentice and spent over 25 years advancing 
into management positions. He holds a Maryland State machinist 
journeyman's certificate, a Bachelor of Science in information 
technology, and a Master of Education degree in adult education 
from the University of Phoenix.
    Our final witness today is Dr. John Bardo, President of 
Wichita State University. Wichita State's Innovation Campus and 
applied learning initiatives have drawn positive national 
attention because the partnerships forged with local and 
international companies including Airbus, Dassault Systemes, 
and Koch Industries. The university has a long history of 
working with industry through its National Institute of 
Aviation Research and National Center for Aviation Training. 
Dr. Bardo's academic interests involve the relationships 
between higher education, the economy, and quality of life.
    He received a bachelor's degree in economics from the 
University of Cincinnati and a master's degree in sociology 
from Ohio University. He also earned a Ph.D. in sociology from 
Ohio State University and attended the Institute for 
Educational Management at Harvard.
    And we welcome you all, appreciate your expertise. And as I 
mentioned when I introduced myself to you a few minutes ago, 
it's nice to have a hearing on such an interesting subject, 
that's a very positive subject, that's a bipartisan subject, 
and that's important to the future of America.
    I'm going to hold off for a second and get a read for how 
far away Chairwoman Comstock is before we proceed.
    Ms. Bonamici. Mr. Lipinski's in Rayburn, so he's almost 
here.
    Chairman Smith. Okay. We're getting close. Since we're 
already off to a pretty good start, I think we're just going to 
recess for about five minutes and wait for the Chairwoman and 
the Ranking Member to arrive. They'll each have an opening 
statement, and then we'll go straight to your testimony. So we 
stand in recess for about five minutes.
    [Recess.]
    Chairwoman Comstock [presiding]. Good morning, and my 
apologies. There was an accident on G.W. Parkway--I have the 
benefit of being close by, but sometimes also there are some 
disadvantages.
    So this morning's hearing will explore how participation in 
mentoring, training, and apprenticeship opportunities impact 
STEM students and may assist in addressing the growing need for 
a diverse and technically trained STEM workforce. The purpose 
of this hearing is to identify what STEM workforce development 
programs should be further examined and what statistics are 
needed to increase our understanding of these tools, the 
contexts in which they are most effective, and the barriers to 
their application and expansion.
    About 20 percent of all jobs in the U.S. economy require 
some level of STEM training, and that will grow. Those 
occupations are projected to grow about nine percent over the 
next decade, faster than any other employment category. In 
order to meet this demand, Congress needs to make informed 
decisions on what are the most impactful and innovative tools 
to address the STEM skills gap and build up America's skilled 
technical workforce.
    A majority of these technical STEM jobs do not require a 
bachelor's degree. In many cases, these good positions, such as 
computer programmers, information technology support, and 
nurses, require two-year degrees, occupational licenses, or 
certifications. Technical STEM jobs are often among the best-
paying and most stable jobs available to individuals with sub-
baccalaureate education. By supporting innovative workforce 
development programs for STEM careers like those our witnesses 
are part of, we not only increase the students' economic 
opportunities and security, but also our nation's.
    To ensure the United States' competitiveness in the global 
economy, we must leverage this hard work and ingenuity of women 
and men of all ages, education levels, and backgrounds to grow 
America's technical workforce.
    I look forward to building on the progress this Committee 
has already made through the INSPIRE Women Act, which was 
signed into law by the President last year, and the recently 
House-passed Building Blocks of STEM, to encourage and grow the 
number of young women and under-represented minorities in STEM 
fields also. Reaching these groups at a young age and 
motivating them to stay in the STEM fields is extremely 
important, but we must also ensure we support programs aimed at 
keeping women and under-represented minorities in the STEM 
pipeline and advancing in STEM careers.
    There are recognized models from across the country and the 
world that demonstrate how apprenticeships, mentoring, and on-
the-job training are tools used by many different industries to 
address skills gaps. One thing is clear: The most successful 
programs are an integration of academia, technical training, 
and hands-on work experience.
    I know as I go throughout my district and I meet with 
employers who need employees, they really want to be able to 
bring them in and train them to their workplace, and so I think 
what we're talking about here today really fits that needs gap. 
So I look forward to hearing from our witnesses today about the 
programs they lead and how they are working with industry to 
meet the diverse and growing needs for a STEM capable 
workforce. Thank you.
    [The prepared statement of Chairwoman Comstock follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Chairwoman Comstock. And I now recognize the Ranking 
Member, Mr. Lipinski, for his opening statement.
    Mr. Lipinski. Thank you, Chairwoman Comstock. I don't know 
if you know, but I was racing you to get in. You passed me on 
G.W. Parkway, and I saw you again on the 14th Street Bridge, 
but somehow you made it in here before me so I apologize for 
being late. We were both stuck in the same traffic jam on the 
parkway. So I want to thank Chairman Smith for holding fort 
here and Ms. Bonamici also.
    The National Science Board recently released its biannual 
Science and Engineering Indicators report. My biggest takeaway 
from the report is that we're falling behind. China has learned 
from our economic success, which we've achieved in large part 
through investments in science and innovation. China and others 
are aggressively investing in research and development and in 
their own STEM workforces. Meanwhile, we're tapping the brakes.
    This is not the time to be complacent about our standing as 
a global economic leader. Other countries are nipping at our 
heels, and we must take meaningful action before it is too 
late. While creating financial incentives and lowering costs 
for businesses may help provide a boost, fiscal policy alone 
will not keep our economy strong. To ensure our long-term 
economic health, we must continue to actively invest federal 
dollars in the long-term foundation on which our economy is 
built: research and development and human capital.
    In today's increasingly technological and data-driven 
economy, a strong STEM workforce is critical for growth and 
global competitiveness. When workers are equipped with the 
technical skills that industry needs, companies are able to 
innovate, increase production, expand, and create new jobs. 
This virtuous cycle is interrupted when employers cannot find 
workers with the skills they need. This is where we find 
ourselves today.
    The so-called STEM skills gap is not new. While we can 
debate the precise cause and scope of the gap, its effects are 
undeniable. The demand for STEM skills is growing and rapidly 
evolving as employers continually update their business models 
to stay ahead of the competition. And our education system has 
generally been slow to respond and adapt to the changing 
economy. As a result, businesses have struggled to find 
qualified workers. The skills gap is worse in some industry 
sectors than others but in many cases, it is dragging down 
productivity.
    There are good examples of innovative approaches to career-
focused STEM education around the country such as the NSF-
funded Advanced Technological Education program at Moraine 
Valley Community College in my district, run by one of today's 
witnesses, Dr. Sands.
    I'm also encouraged by companies such as Accenture and IBM. 
They are piloting an old model of workforce development: the 
apprenticeship, in new fields like cybersecurity and customer 
service. But we'll need far more innovative programs like these 
to meet growing demand.
    The issue of STEM workforce development is a particularly 
important one to me. Chicago is unique among major U.S. cities 
and the degree to which the economy strong in both service and 
manufacturing jobs. These sectors are increasingly driven by 
technology, automation, and data analytics, so the demand for 
STEM skills is high.
    I look forward to hearing from our witnesses today their 
thoughts on mentoring, apprenticeships, and other innovative 
strategies for workforce development and whether they should be 
more widely adopted in new industry sectors and geographic 
regions. As Ranking Member of this Committee--Subcommittee I'm 
particularly interested in hearing ideas on the role federal 
science agencies can play in increasing coordination between 
industry and educational institutions.
    We need to close the STEM skills gap in the near term, but 
I think it is just as important to create an agile STEM 
workforce that can respond to changing needs over the long 
term. Our future depends on it.
    Thank you, and I yield back the balance of my time.
    [The prepared statement of Mr. Lipinski follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
[The prepared statement of Ranking Member Eddie Bernice 
Johnson:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Comstock. Thank you. And I now recognize Dr. 
McCrary for five minutes to present his testimony.

      TESTIMONY OF DR. VICTOR R. McCRARY, VICE PRESIDENT,

               RESEARCH AND ECONOMIC DEVELOPMENT

                  AND PROFESSOR OF CHEMISTRY,

                    MORGAN STATE UNIVERSITY;

           MEMBER, NATIONAL SCIENCE BOARD AND CHAIR,

         TASK FORCE ON THE SKILLED TECHNICAL WORKFORCE

    Dr. McCrary. Thank you, Chairwoman Comstock and Ranking 
Member Lipinski. On behalf of my colleagues on the National 
Science Board, I'm grateful for this opportunity.
    The number of U.S. jobs requiring substantial STEM 
expertise has grown nearly 34 percent over the past decade. As 
of 2015, nearly one in seven workers with at least a four-year 
degree say their job requires a bachelor's level of STEM 
expertise. However, more than 16 million more jobs do not 
require a bachelor's degree yet require significant experience 
in at least one--and expertise in one technical field. 
Moreover, these jobs are growing in number.
    At the same time, other countries are challenging our 
leadership in science and technology. Between 2000 and 2014, 
the number of Americans with four-year STEM degrees rose 53 
percent. In China this number was 360 percent. Just last week, 
the National Science Board released a statement predicting that 
China would surpass the United States in R&D investment this 
year.
    China's targeting up to 15 percent of their GDP at talent 
development, and China is not the only country that is chasing 
us. If we want to remain a world leader, we must leverage the 
hard work, creativity, and ingenuity of women and men of all 
ages, educational levels, and backgrounds. We need scientists 
searching for cures for genetic disorders, engineers securing 
our electrical grid, skilled technicians in our hospitals and 
labs, and farmers growing more with fewer resources. We can't 
do this by relying on a relatively small and distinct STEM 
workforce. Instead, government, business leaders, and educators 
must work together to build a STEM-capable U.S. workforce.
    That workforce goes beyond traditional scientists and 
engineers to include the often-overlooked skilled technical 
workers who helped form the backbone of our economy. Skilled 
technical jobs are well-paying and are found across the United 
States. Businesses large and small need adaptable STEM-capable 
workers at every educational level and from all demographic 
groups in order to compete. But according to a survey conducted 
by the GAO, employers in 80 percent of local area said they had 
trouble filling jobs in skilled technical occupations.
    Because we both see a need and an opportunity, the board 
has created in November of 2017 a Task Force on the Skilled 
Technical Workforce. I've submitted the task force charge along 
with my written testimony. We're exploring ways the NSB and NSF 
can help strengthen this segment of the workforce, including by 
identifying gaps in information and data, exploring ways to 
build and leverage partnerships, and examining evidence-
informed approaches to removing the barriers that far too many 
students and workers encounter.
    Although it is still early in the work of the board's task 
force, I will use the remainder of my time to highlight several 
points that have already become clear to us. What we have here 
is a failure to, or, more specifically, to coordinate between 
businesses desperate for STEM-capable skilled U.S. workers and 
students and incumbent workers seeking well-paying, stable 
jobs. Too often, the students we produce or the training we 
provide to workers doesn't seem to align with what industry 
wants.
    At the same time, industry hiring practice says can 
themselves be a barrier, for example, requiring a four-year 
degree for openings where a certification or two-year degree 
might be a better fit.
    During a recent listening session at Baton Rouge Community 
College in Louisiana, board members sat at a table in which 
industry participants lamented their inability to find workers 
with specific skills and a community college student sitting 
right there at the table saying, ``Hey, that's me.''
    We also see that there's a stigma associated with community 
colleges, technical schools, and vocational training in the 
minds of students, parents, employers, and yes, academics. We 
need to change that perception and fix our own blind spots and 
baggage to recognize how critical these workers are to the 
success of our nation's science and engineering enterprise.
    To give you an example, last year the NSB visited LIGO in 
Louisiana. We heard of the LIGO scientist who won the Nobel 
Prize in physics for the discovery of gravitational waves, but 
what you might not know about LIGO is that it's an industrial 
facility, miles of carefully welded high vacuum pipeline and 
banks for air filters as tall as a house. It's skilled 
technical workers, HVAC experts, electricians, and other 
workers without a four-year degree who built that, keep it 
running, and they are fundamental to the scientific discoveries 
that are made. This is blue-collar STEM.
    Next, we must better leverage our public investments. At 
NSF, programs like INCLUDES and Advanced Technological 
Education or ATE do this by facilitating partnerships between 
educational institutions and local businesses or between 
research-intensive universities like the University of 
Tennessee and local community colleges. We learn what works so 
others can take these practices to scale.
    We have--all have a role to play in this. Technical 
schools, community colleges, trade labor organizations, 
chambers of commerce, industry, four-year colleges, research 
universities, and HBCUs like Morgan State University and other 
minority-serving institutions need it to create onramps into 
STEM for all segments of our population. We cannot compete 
without their inclusion and wholehearted participation.
    I'm glad you're having this hearing, and I'm looking 
forward to learning from the rest of the witnesses.
    Madam Chair, this concludes my testimony.
    [The prepared statement of Dr. McCrary follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairwoman Comstock. Thank you. And I now recognize Dr. 
Sands, and I understand you have a video, so I look forward to 
that.

         TESTIMONY OF DR. JOHN SANDS, DEPARTMENT CHAIR,

               COMPUTER INTEGRATED TECHNOLOGIES,

               MORAINE VALLEY COMMUNITY COLLEGE;

              DIRECTOR AND PRINCIPAL INVESTIGATOR,

                CENTER FOR SYSTEMS SECURITY AND

                     INFORMATION ASSURANCE

    Dr. Sands. Yes, good morning, Chairwoman Comstock and 
Ranking Member Lipinski. I'd like to start with a short video 
that talks a little bit about our programs and highlights one 
of our students.
    [Video shown.]
    Dr. Sands. I'm here today to share my knowledge and opinion 
on how apprenticeship programs can address the growing gap in 
the country's technical workforce. I'd like to present a few 
potential approaches to increase the quality and participation 
rate of apprenticeship programs in technological areas like 
cybersecurity.
    Over my career, one of the areas of the workforce 
development I've been most involved in is the study and 
implementation of effective programs to increase student 
awareness of critical technology fields. Both as a Professor 
and Principal Investigator, I have led teams to develop new and 
innovative career awareness programs. These programs present 
students with self-directed opportunities to explore 
interesting technical jobs. The exploration also requires 
students to examine the typical roles and responsibilities 
associated with each position. These programs also enable 
students to review salaries, job credentials, and potential 
career pathways.
    Another area is expanding partnerships and apprenticeship 
programs. Moraine Valley Committee College has been successful 
in building partnerships in which local businesses benefit from 
a continuous pool of qualified applicants. Students benefit by 
gaining experience and learn workforce skills that are 
difficult to replicate in the classroom.
    One example of the successful program would be the 
partnership between Moraine Valley Community College and ESPO 
Systems. In the fall of 2017 ESPO Systems was nominated for the 
Illinois Community College Trustee Association Business and 
Industry Partnership Award. Representatives from both ESPO 
Systems and Moraine Valley focused on building apprenticeship 
programs that provide students with a meaningful and relevant 
workforce experience. This program also serves dozens of 
students, most of which go on to full-time employment. ESPO 
Systems and Moraine Valley staff meet each semester to plan, 
review, and evaluate the program.
    One of the other areas that I think is important is 
establishing apprenticeship program standards. As a rash of 
data breaches continue to make headlines, businesses have 
gained greater interest in working with academia and federal 
agencies in adopting national standards. The NSA/DHS Centers 
for Academic Excellence program is a good example. This program 
establishes curriculum requirements, student learning 
assessment, and a series of institutional requirements. This 
program serves as a great mechanism to expand apprenticeship 
programs for the cybersecurity industry.
    Another area is establishing national credentials earned by 
completing an apprenticeship program. I believe there is strong 
support for establishing a national credential that would be 
directly linked to students' successful completion of a 
recognized apprenticeship program. The cybersecurity industry 
is well-organized to adopt this type of program that could be 
directly associated with one of the two national programs that 
are operated by federal agencies, and those two programs would 
be the CyberCorps Scholarship for Service program, which is 
funded through the National Science Foundation; and the other 
would be the Centers of Academic Excellence in Cyber Defense, 
which is funded by the National Security Agency and Department 
of Homeland Security.
    I also want to stress the importance of community colleges. 
I would like to highlight the unique role community colleges 
can contribute to establishing a better national network of 
apprenticeship programs. Community colleges, as the name 
indicate, belong to and serve their communities. Students 
attending community college programs are looking for 
inexpensive and efficient pathways to new careers and academic 
opportunities.
    Community colleges provide their communities with the 
nurses, healthcare workers, heating and air-conditioning 
technicians, automotive technicians, information technology 
specialists, just to name a few. Community colleges have a 
close relationship with the current technology programs at 
their local high schools and can provide students with an early 
awareness of career opportunities in technical fields. Any 
expansion of apprenticeship opportunities should leverage 
community colleges in their unique position within communities 
across the Nation.
    That concludes my testimony. Thank you.
    [The prepared statement of Dr. Sands follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairwoman Comstock. Thank you. And I now recognize Mr. 
King for his testimony.

                 TESTIMONY OF MR. MONTEZ KING,

                      EXECUTIVE DIRECTOR,

           NATIONAL INSTITUTE OF METALWORKING SKILLS

    Mr. King. Thank you, Chairwoman Comstock and fellow 
members, for inviting me to speak out about innovative work 
training programs.
    I want to start out with some statistics. I don't want to 
create an echo chamber because of my panelists here, but I need 
to say that the stakes are high. And I would like to start with 
about 3.5 million jobs are likely to be needed within the next 
decade. And with the skills gap, there's likely to be about 2 
million of those jobs unfilled. And another really interesting 
statistic is only 16 percent of all American high school 
seniors are either proficient in mathematics or are interested 
in STEM careers. That's significant. So when we talk about 
building training programs, you can have the best program in 
the world but if you don't have any bodies in there, it doesn't 
matter. So you have to increase the interest.
    So how do we do that? I'm going to move to my next slide. 
This leads into my next slide.
    [Slide.]
    Mr. King. And just bear with me because everyone has their 
own way of recruiting, and I recruit people all the time. I'm 
always looking for someone to enter into the skilled workforce. 
So the Walking Dead syndrome is the truth in reality. It is--
now, think about--this is a popular series that's on TV. And 
the series framework is based on an overwhelmingly large 
population of zombies searching for a small majority of flesh 
for the survivors. This is a small amount of survivors and you 
have all of these zombies, millions, millions with maybe 1,000 
survivors. And they're all looking for the same thing. And this 
is a striking parallel to our college campuses. It extremely--
it really is.
    Now, think about all of those individuals on the college 
campuses going for jobs--they're trying--they're planning for 
jobs that either won't exist when they come out of school or 
rapidly evolving or it's not within that skill frame where most 
of the jobs will--we've heard statistics where you show that 
most of the jobs will be for--won't require a four-year degree, 
but most of our students or our kids are going for four-year 
degrees. So it's extremely important to speak the reality and 
truth to our young people so that they know the truth. And it 
really works when we talk to these young people about the 
Walking Dead syndrome.
    So how do we train? And you got to--we've got a look at 
today's economy where the jobs are more integrated, cross-
discipline, technology-driven so when we build these STEM 
education training programs, I believe we need to focus on the 
work-and-learn opportunities, more work-and-learn 
opportunities. We also need to focus on creating an education 
pathway that supports students from middle school through their 
career advancement.
    And this leads into my next slide.
    [Slide.]
    Mr. King. So when you look at this slide, you see a work-
and-learn career pathway model where we have our gateway, how 
do we get in, and then we have our goal. And then you can see 
credentials as we get to our goal as the industry-recognized 
credentials. Now, if you look at the vertical path, you see 
that's a straight upward path, training, education, go to 
college, right? Everyone--you're taught to go to college. And 
then you have on the horizontal hands-on experience. You have 
those individuals that maybe come out of high school and just 
go with hands-on experience. But what we're seeing is neither 
path is necessarily the best path. We need to go on a diagonal 
path where you're getting education and hands-on experience 
contemporaneously interwoven together. So this is what we're 
seeing as a successful model, maybe not for everyone but it can 
help with those--that large pool of opportunities that exist 
and that are not being filled.
    So I'll go into my last point, which is industry 
engagement. Industry has to identify the standards are. It's 
not the schools, it's not the education community. We are to 
follow what industry says is needed. And so how do we do that? 
So when we look at industry-recognized credentials, industry-
recognized standards, that is the key. The standards are the 
foundation that are actually written by industry. Industries 
are writing down what their needs are and then developing 
credentials around those standards to measure individuals 
against the standard.
    So if we use the credentials as an adhesive or a connector 
throughout the careers, for example, for me, I got started in 
middle school. Someone gave me the Walking Dead syndrome, maybe 
in different words, but they gave me that syndrome or they 
talked to me about it. And as I moved through my career, I 
earned the credentials and I had the work experience, making me 
a straight-A student through the entire process.
    So I want to thank you again for having me, and I look 
forward to some of the questions coming through.
    [The prepared statement of Mr. King follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. That captures everyone's imagination. 
Thank you.
    Dr. Bardo, follow-up that act, right?

                  TESTIMONY OF DR. JOHN BARDO,

                           PRESIDENT,

                    WICHITA STATE UNIVERSITY

    Dr. Bardo. Well, thank you very much, Madam Chairwoman, and 
thank you for--everybody for having me here today. And the 
timing couldn't have been better in terms of following Mr. 
King.
    For those of you that don't spend all day thinking about 
Wichita, which I can't imagine any of you sitting up there 
wouldn't be doing that, Wichita is the third-highest 
percentage--it has the third-highest percentage of engineers in 
the workforce compared to San Jose and Houston. And we are very 
dependent on technology-based exports. In fact, to set up our 
programs when I came back home to Wichita, I did a study of the 
structure of the Wichita economy. We're very tightly tied to 
Dallas-Fort Worth, and we're very tightly tied to the I-35 
corridor. We also export to five or six places in the United 
States, export goods are where you make your money, and then we 
export overseas.
    We knew that those were very important things to know about 
the economy, but how does that play out within individual 
industry? So we at the university started a blueprint for 
regional economic growth, which was an analysis with business 
of their needs. We didn't go in and tell them what they needed; 
we asked them. And we identified eight areas where the economy 
of greater Wichita could grow, and our goal as a university is 
to support each of those areas over time as funds become 
available.
    You may also not know that Wichita has--Wichita State has a 
very long tradition of working with business and industry. We 
obtained our first major gift of the year--I was born in 1948, 
which was a wind tunnel given by Beech. We are now second in 
the United States in the percent of research money funded by 
industry. So we're very serious about our relationships with 
industry.
    And one of the points I want to make with you today is that 
that tie between industry research and education is absolutely 
crucial if you're going to be able to really make a difference 
for the capacity of the United States to build STEM and to 
build STEM-based industries.
    We also, as a university, are very prone to experiment. 
We've been prone to experiment over the course of decades--this 
isn't new--and we're very excited about the fact that we have a 
modified apprenticeship program going at a four-year 
university. Wichita State is what is in the vernacular known as 
a research II, which means that we are not the highest level of 
research but we're second. And we have a modified 
apprenticeship program. We started it--they tested it--with an 
aircraft industry. There were going to outsource a large 
engineering project to India. We convinced them to allow our 
undergraduate students to do it. It came in on time, better 
engineered, and while they weren't hiring, they hired 35 
percent of the students who worked on the project, and 83 
percent of the students stayed in the labor shed. A few others 
left. Two went to--one went to med school and one went to get a 
Ph.D. in engineering, and we're okay with both of those 
outcomes.
    We also were in the process of amalgamating a technical 
college into the university, Wichita Area Technical College 
July 1 will become Wichita Tech, WSU Tech. Why are we doing 
that? There are so many people who have hands-on skills who 
want to learn, who want to be part of the economy, want to be 
part of STEM, but they don't want to take on a 15-week course. 
They don't want to take on a 120-hour degree. And so what we're 
trying to do is to find ways of moving those students into the 
workforce and the model you were using, moving them into the 
workforce and building their capacity through offering short 
courses, through offering degrees, through offering 
certificates and building their capacity over time so that they 
can lead in their field.
    If they want to be a welder, if they want to be a sheet 
metal worker, we want them to do that. If they want to be a 
sheet metal worker supervisor, we want them to do that. If they 
want to be a designer of new aircraft, we want them to do that.
    So, Madam Chair, to cut this short, it's time for Congress 
to act as it did in the '80s. The Bayh-Dole Act changed the 
future of higher education in the United States. I believe it's 
time for Bayh-Dole II, and I believe this Committee is the 
committee that can make that happen. Thank you very much for 
having me here today.
    [The prepared statement of Dr. Bardo follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairwoman Comstock. Thank you very much. I really 
appreciate all this testimony. It's given us so much food for 
thought, as well as great visualizations, too. So thank you.
    You know, as I was watching the video and as I go around 
and talk to businesses, as well as our schools, we know it's 
always a challenge to get more young women involved and engaged 
and stay in, as well as underserved populations and minorities, 
so I think a lot of what you've talked about here really 
addresses some of that, too. So how can we really, maybe, get 
them like from kindergarten?
    I know in my district we have a children's science museum 
that is stood up and now is going to expand and that's where my 
three-year-old granddaughter loves to spend every waking 
moment. And I've been in kindergarten classes now where they're 
coding and--you know, there's no daylight and everybody's in 
there. And what some of our schools that have like the 
highest--very high-needs schools, high--school lunch programs, 
have some of the best science programs in it now. So how do we 
get that pipeline way down there so that there's never--you 
know, they're always in it? I'll start with you, Mr. King, 
sure.
    Mr. King. And that's focusing more on the interest, right, 
to keep them----
    Chairwoman Comstock. Yes. Yes.
    Mr. King. Yes. I'm a big stickler on putting together 
achievements as, you know, Dr. Bardo had mentioned, having 
those achievements all the way through from that young age 
going through their career. And I want to put a personal--just 
a personal question--attribute here is that I was--someone 
showed me how to chase a thread. I needed a bolt for my 
bicycle, and it stuck in my head. And that was it. I was done. 
The rest of my career I knew exactly what I wanted to do. I 
wanted to be--I changed everything about my perception of 
college and how I would go through. And I think those types of 
experiences and moments is what we need to share with the kids 
so that they can do an interest inventory at that early age, 
and with that interest inventory it leads you out to your 
career. And it's a true career, not something that's being 
pressured by what others say. It's about what you actually 
enjoy doing.
    Chairwoman Comstock. So it's with those young children, 
instead of maybe Daddy comes in and does something for the 
little girl, that they actually walk them through it----
    Mr. King. Yes.
    Chairwoman Comstock. --and say you can do it, too.
    Mr. King. Absolutely, but then you have those underserved 
communities where they don't have that father----
    Chairwoman Comstock. Yes.
    Mr. King. --or they don't have that mother to show them, 
and that's where mentoring becomes an important piece. And so 
that's why I've dedicated over ten years of my life mentoring 
individuals that have that gap so that they can get the same 
experience. It's just not through their biological.
    Chairwoman Comstock. Right. And Dr. Bardo?
    Dr. Bardo. If I might, please. One of the things that we 
know is that we lose a lot of girls in middle school, and so 
really encouraging college women to spend time with girls in 
middle school is a big deal because it gives them a role model. 
It shows them you can be a normal girl and major in a STEM 
area. If you look, many of the new areas, particularly in 
engineering, are becoming more female-centered. Bioengineering 
we're seeing a lot more women interested. And part of the sales 
there is you can make a difference in people's lives, and so it 
becomes, you know, yes, it's math, yes, it's engineering, but 
at the end of the day, I can make a difference in people's 
lives.
    The other thing that we're experimenting with are half-
credit-hour badges. We know that mother of three who's trying 
to hold down two jobs isn't likely to be able to make a 15-week 
course, so what we've done is break down many of our areas into 
half-credits that take about a week-and-a-half to do, and you 
can probably figure out how to get a babysitter or how to make 
things work and that allows you to inch in. So we're pretty 
excited about that.
    Chairwoman Comstock. Oh, that is great. And then also 
with--you know, I have a young woman's leadership program, and 
one of the things we try and do with the young people is get 
them into a workplace setting. You know, my mom was a teacher, 
my dad was an engineer but he was sales, so I never was in 
those type of job settings. I wasn't in a hospital, I wasn't in 
a manufacturing plant, and a lot of these places where you just 
don't understand what goes on there.
    So I think what I love about the mentoring programs and 
doing this is you're really getting kids in there and making 
sure we can get them to get some experience and see themselves 
in a workplace and see the whole path around them and the kind 
of environment they would be in. And I would think, 
particularly with an underserved population that might not have 
that experience where mom or dad is taking them to a workplace, 
that, you know, this really seems like a great way that we can 
get everybody on a level playing field where we get them 
engaged. And I guess that's sort of not quite as a question, 
but, Dr. McCrary----
    Dr. McCrary. Well----
    Chairwoman Comstock. --you have a----
    Dr. McCrary. Yes, Chairwoman Comstock. One other way that 
we've been able to successfully do that is engage the technical 
professional societies who have engaged with students at a very 
early age. So, for example, we worked in a program a few years 
ago with the American Chemical Society, the National 
Organization for Professional Advancement of Black Chemists and 
Chemical Engineers, and parents very early on. What happens 
when your young daughter says I'm going interested in becoming 
a chemist or becoming a chemical engineer, and so get those 
societies working very early, particularly the minority 
technical societies like Society of Hispanic Engineers, SHPE, 
Society of Women Engineers.
    Many of these national organizations have chapters 
throughout the country that are working at the K-12 level and 
at the same time offering workspace opportunities, as you 
mentioned, bringing people in chemical plants and engineering 
places and exposing them to them--students to them. So those 
type of programs are strongly encouraged.
    Chairwoman Comstock. Great. Okay. And I will now recognize 
Ms. Bonamici for five minutes.
    Ms. Bonamici. Thank you, Chairwoman Comstock and Ranking 
Member Lipinski, and thank you to all of our witnesses.
    First, I want to express concern about President Trump's 
proposed budget plan. He's calling for a large cut to the Job 
Corps program and as well as completely eliminating funding for 
WANTO, the Women in Apprenticeship and Nontraditional 
Occupations. We have in Oregon, Oregon Tradeswomen, and they 
receive funding through WANTO. They've been recruiting, 
preparing, placing, and retaining women in the building trades 
very successfully. We need to be investing in more, not less, 
in programs that prepare people to go to work.
    And I frequently hear from employers out in Oregon about 
the challenges they face in recruiting skilled workers, and 
unfortunately, small and medium-sized businesses often don't 
have the resources to establish work-based learning programs. 
So I have introduced bipartisan legislation with my colleague 
also on the Education and Workforce Committee, Congressman Drew 
Ferguson from Georgia, the Bipartisan Partners Act, which would 
support partnerships to help small and medium-sized businesses 
establish work-based learning programs and support services for 
workers using existing funds so it's no additional cost to 
taxpayers.
    Mr. King, I understand that the National Institute of 
Metalworking Skills helps manufacturing businesses of all sizes 
establish and implement apprenticeship programs, but can you 
identify some of the challenges that small and medium-sized 
businesses face creating those job-training programs and how 
Congress could help level the playing field? And I do want to 
save time for another question as well.
    Mr. King. When it comes to the smaller organizations, even 
bigger organizations dealing with the unions, for 
manufacturing-sector jobs, the registered apprenticeship 
program has proven to be a little cumbersome and not as 
attractive for many of the employers. You can go into the 
construction industry, and it's working well for them, but when 
you're thinking about manufacturing, it does pose some 
problems. And the ROI, return on investment, it doesn't seem 
attractive to employers.
    So as a member of the task force, we are working towards 
recognizing apprenticeship programs because there's many 
programs out there that we call pseudo-programs. I mean they're 
training. Most companies are training; it's just not either 
registered or it's not recognized. And with a few quality 
checks to make sure that it includes some of the key 
components, I think we can expand more work-and-learn 
opportunities, and we can of course also spark more interest in 
kids.
    Ms. Bonamici. Terrific. And I encourage my colleagues on 
this committee to look at the Partners Act that Congressman 
Ferguson and I have.
    I want to shift a little bit to big picture, and I know the 
Chairwoman and Ranking Member know that I'm on the Education 
and Workforce Committee, as I mentioned, and have over the 
years looked for ways to make sure that students who are going 
through school who may be interested in STEM are educated to be 
more creative and innovative because I keep hearing about the 
innovative economy. So I started the STEAM Caucus and--about 
integrating the arts and design into STEM learning, and there 
are nationally recognized STEAM schools across the country that 
are very successful in engaging more students in STEM learning.
    CTE, career and technical education, as well in the K-12 
system, the more well-rounded education that is part of the 
Every Student Succeeds Act which this--the last Congress passed 
with strong bipartisan support is also going to help engage 
students early on.
    But what I wanted to mention is that not too long ago 
Google decided to test its sort of hiring hypothesis and they 
crunched all the numbers--hiring, firing, promotion data--since 
its inception. Here's what they found. Of the eight most 
important qualities of their top employees, STEM expertise came 
in last. The seven top characteristics were all soft skills: 
being a good coach, communicating, listening well, possessing 
insights into others, including others of different values and 
points of view, having empathy toward and being supportive of 
one's colleagues, being a good critical thinker and problem 
solver, and being able to make connections across complex 
ideas.
    So I know that we're talking about blue-collar STEM jobs 
here today. However, for people who want to advance in careers 
and for people who want to be successful and stay at companies, 
what are apprenticeship and work-based skills training doing to 
include all of these really critical interpersonal skills in 
their curriculum? I'll start with Mr. King and then anyone else 
who wants to weigh in.
    Mr. King. Sure. With the work-and-learn apprenticeship 
models, it gives you those soft skills by--I can tell you, for 
example, for me coming into my--on a work-study program, the 
work day started at 7:00, and I got there at like 6:50 and it 
was about five minutes after 7:00 when it was time to work. I 
was a good kid, but I just didn't have the soft skills. But the 
work-study program and working around those professionals is 
what helped me develop the soft skills I needed prior to even--
I mean, you could've taught me all you wanted in the classroom. 
It was in that workplace is where it actually happened for me.
    Ms. Bonamici. Does anyone else want to add to the 
importance of the soft skills?
    Dr. Sands. Yes, I'll add a little bit to it. You know, as I 
mentioned, we work with several companies in their--in the 
design of their apprenticeship programs, and part of what we 
try to do is ensure that the types of tasks and jobs that 
students are involved with will help build those types of 
skills.
    And we've worked with--you know, there's programs out 
there--I don't know if you've heard of Necessary Skills Now 
through the Center of Occupation Research and Development, but 
they focus on six areas. And part of what I think needs to be 
done is those types of things like communications and ethics 
and so on need to be built into the experience of an 
apprenticeship program. It's not just the technical aspects but 
it's also, like you said, the workforce skills.
    Ms. Bonamici. Thank you. Dr. McCrary?
    Dr. McCrary. I just wanted to give you an example. Morgan 
State University is a member of a--has a Center of Academic 
Excellence and Cybersecurity, as one of our colleagues 
mentioned earlier, and when we met with them last fall, not 
only did they want to meet with our Dean of Engineering and our 
Dean of Computer Science, which is natural, but also our 
College of Liberal Arts and our School of Business. Why is that 
important? Because cybersecurity is not just confined to 
electrical engineering and computer science. It involves 
psychology; it involves foreign languages. And so they wanted 
to have that approach in terms of their research. And so for 
students in those areas, they also want to attract those 
students, as well as those in the hard-core STEM areas.
    Ms. Bonamici. Absolutely. Thank you very much, and I yield 
back. Thank you, Madam Chair.
    Chairwoman Comstock. Thank you. And I now recognize Mr. 
Marshall for five minutes.
    Mr. Marshall. Yes, thank you, Chairwoman.
    Dr. Bardo, when I think of Wichita State University, I 
think of the innovation creativity entrepreneurship capital of 
the world. And you guys have always been way out there. You've 
always been a great visionary. Can you just take a minute and 
share a little bit about your Innovation Campus and what that 
looks like just so the other members could hear it?
    Dr. Bardo. Sure. What we're attempting to do at Wichita 
State is actually create an innovation university. And when you 
do that, you have to start with something that people can 
recognize. So we started by taking an old golf course and 
turning it into a public-private partnership enterprise where 
students can work. They can take three and four years of work 
in real businesses working on real projects at the same time 
they're studying general education, studying liberal arts, 
studying engineering, biology, whatever area they're in. We're 
making it a living learning environment because what we know 
about innovation is it isn't something that happens from 8:00 
to 5:00. It could happen at 3:00 in the morning. It could 
happen over a beer.
    And so we're encouraging restaurants, hotels, other 
entities that encourage students and faculty to come together 
and collide with each other and with businesses to be on the 
campus. We've seen a major increase in business interests. We 
have drawn businesses from as far away as Sweden to our campus. 
And, you know, we're in the great flyover. We're right in the 
center of the center and it can be done in that area, and it 
can be done successfully. But we're seeing great interest to a 
point where tours are getting to be a little bit of a problem 
because we're giving so many of them, and we're seeing 
excitement both in the local community and in the broader 
technology industry around us.
    Mr. Marshall. So your largest employer there I assume is 
Koch Industries. What have they done on campus with you guys?
    Dr. Bardo. They've done business on our campus in terms of 
creating a business center. Annie Koch, who is Koch's daughter-
in-law now is creating an experimental school to see if we can 
take young children and get them engaged in STEM issues and in 
innovation early so--they're starting with preschool actually. 
And their building this school right on the campus, right near 
Airbus, right near our engineering building, and we're 
encouraging those students to be engaged with us from the time 
they're little children. We think that that's a way of getting 
them excited, getting them interested and then over time, as we 
learn, we'll try to generalize this out into public education 
but we'll also start encouraging students with disabilities, 
low-income students also to come in and be part of this 
experience so that it's a different way of looking at education 
as well.
    Mr. Marshall. Talk about teach the teachers a little bit. 
One of my biggest concerns is that this needs to be introduced 
in grade school much like used to teach French in grade school. 
I know Emporia State back home is doing a great job with 
teaching the teachers. Are any of you having experience with--
how are we teaching the teachers, Dr. Sands?
    Dr. Sands. Yes, I'd like to maybe highlight one of the 
programs that's funded through the National Science Foundation. 
We run a cybersecurity center at Moraine Valley, and a big part 
of the cybersecurity center is a faculty development academy. 
And over the years it's evolved so, first of all, it's a 
virtual academy. Most computer systems nowadays are accessed 
remotely, so this academy is actually accessed remotely. And 
we're able to train faculty from across the country at free or 
very low rate. And basically, especially in the area of 
cybersecurity, is that the target moves constantly and the 
content changes constantly, so faculty development is a 
critical part of running quality programs. So we've been able 
to train--over the ten years that we've run the academy we've 
trained over 6,000 faculty members from across the country, and 
that would include high school faculty, it would include 
community college, and we've even had university faculty be 
part of it. But centralizing those things and having national 
centers like the ATE centers enables, you know, less--a better 
investment and able to reach a larger audience without having 
to have centers all over the place.
    Mr. Marshall. I have time for one more question. Dr. Bardo, 
talk about the--is it the Bayh-Dole Act? So paint the picture. 
What would that look like in the future? If you were king, 
paint that picture what Congress--what it needs to do--be done 
to update it for us.
    Dr. Bardo. Well, we have--I'm not sure exactly what you're 
speaking to.
    Mr. Marshall. The Bayh-Dole Act you talked about----
    Dr. Bardo. Oh, the Bayh-Dole Act, yes.
    Mr. Marshall. Forgive me.
    Dr. Bardo. Birch Bayh was a well-known Congressman many 
years ago, and of course Senator Dole we all know and love. The 
Bayh-Dole Act allowed universities to take inventions and to 
sell them to the marketplace. Prior to that time, the Federal 
Government owned anything that the Federal Government 
participated in. This was a sea change for universities, and we 
didn't recognize it.
    What the Bayh-Dole Act II would do--I mean, it obviously 
would have a different name and it might be the Comstock-
Marshall Act but the--
    Mr. Marshall. It has a ring to it.
    Dr. Bardo. But the--what this would do would be to focus on 
what does the next generation need to look like? So, for 
example, to solve the problems of cybersecurity, to solve 
problems of health takes big science and big data. And what's 
ended up happening is that a relatively few universities 
control basic research, which isn't necessarily a bad thing. 
Don't--I'm not criticizing. But for the rest of us we can make 
a real impact by integrating the work we do with the community.
    And so the Bayh-Dole Act II would really focus not on 
transferring intellectual property to business but would focus 
on trying to create applied STEM work that would benefit 
faculty, benefit students, and benefit the economy of the area. 
And in my long testimony I did make several suggestions of 
things that I felt might be something to be considered.
    Mr. Marshall. Okay. Thank you. And I yield back.
    Chairwoman Comstock. Thank you. I now recognize Mr. 
Lipinski for five minutes.
    Mr. Lipinski. Thank you. I want to thank the witnesses for 
their testimony. I want to start out by asking Dr. Sands 
about--sort of elaborate on the cybersecurity credential, how 
you would see this coming about, how does that get--how would 
that get established in your eyes?
    Dr. Sands. You know, we have several national programs out 
there now that really could be leveraged to build a national 
credential. So, you know, as an example, the NSA/DHS Centers 
for Academic Excellence, they've established credentials for 
institutions so, you know, as far as aligning curriculum, 
faculty requirements, even institutional requirements. You 
know, if you're hanging a sign out at your institution at your 
cybersecurity center, guess what, you've just become a target, 
so you need to practice what you preach.
    And so part of that program has set those types of 
standards, and I think it would be an ideal program to expand 
those types of things to student credentials that as soon a 
student could earn as part of their service in an 
apprenticeship program. And a really good example of that might 
be the SFS program. So the SFS program, now the CyberCorps 
program, it's a scholarship program where students basically 
are awarded a--funding for scholarships during their academic 
time at school, and then they have to pay that back through 
service to either a federal agency or state or local 
government.
    But I think we could actually put standards on that 
apprenticeship program, and they could earn those credentials 
as part of their service in the apprenticeship program. Right 
now, there really isn't a standard out there for that.
    And the other thing I think would be really important is 
that the SFS program really focuses on federal and local 
government jobs. I think that should be expanded to the private 
sector as well because the private sector is suffering right 
now with the shortage of cybersecurity workers as well.
    Mr. Lipinski. Now, do you find--is it difficult to find 
students who are equipped to enter the--you know, the 
CyberCorps Scholarship for Service program?
    Dr. Sands. I think there's a challenge, and it's a very 
selective program. But I think as more and more community 
colleges--community colleges are new to the game, so they just 
came into this program in the last two years, and I think 
community colleges will have a lot in contributing additional 
students into the program.
    But I think other programs like GenCyber, it's a program 
that's funded through National Science Foundation also, enables 
us to run summer camps. So like this summer we ran a camp--a 
GenCyber camp, and we had 50 kids. By the way, half of them 
were women, which is really unusual in this area--or young 
girls. It even reached out to organizations like the Girl 
Scouts. But it allowed kids to come in for a week and learn 
everything from basic coding, capture-the-flag types of 
activities in cybersecurity, and then it wrapped up with a 
short competition.
    But what it enables us to do is to get the really talented 
kids that never thought about this type of career or a career 
in the STEM area to see the types of jobs that are out there 
and then the types of skills and opportunities that are 
provided in these fields.
    Mr. Lipinski. And I know that you have developed curricula 
for grade school, high school. How do you go about doing that? 
Do--and do you see schools being, you know, willing and able 
to, you know, implement these?
    Dr. Sands. It was a challenge early on because most schools 
don't want their students using cybersecurity tools on their 
production networks, so what we found was a model that, again, 
uses a virtual environment. So most schools aren't going to let 
students even modify credentials on their local machines. But 
by creating a curriculum that's virtual, now you have a safe 
sandbox where kids can actually learn the administration of 
systems and they can actually use systems that take advantage 
of vulnerabilities and see how those things work.
    And the other thing with that is that we can actually 
control what we are exposing students to, so, you know, we want 
them to see the benefit of these tools, but we also want, you 
know, there to be ethics that's taught as part of the program 
and so on.
    But I think, you know, just to address it, one other thing 
is, you know, exposing students to the actual jobs that are out 
there and then bringing them on trips to organizations or 
healthcare facilities or server farms where they can actually 
see what a typical IT or cybersecurity person does and the 
types of facilities that they work in. Most of us have no idea 
what those facilities look like, and, again, most high school 
teachers have never experienced those types of things.
    Mr. Lipinski. Thank you. And I want to thank you for your 
work and proud to have you in Moraine Valley there in the 
southwestern suburb of Chicago.
    Dr. Sands. We thank you for your support.
    Chairwoman Comstock. Thank you. And I now recognize Mr. 
Banks for five minutes.
    Mr. Banks. Thank you, Madam Chair, and thanks for holding 
this important hearing.
    I'm very pleased to see the Trump Administration putting an 
emphasis on expanding apprenticeships and expanding educational 
opportunities beyond the traditional four-year college degree 
as we've discussed today. There are millions of job openings in 
our country that require a technical certification short of a 
college degree. These jobs pay well and can support a middle-
class lifestyle.
    And in my home State of Indiana, I was proud to work with 
then-Governor Mike Pence, who recognized the untapped potential 
in this area and instituted a number of initiatives to increase 
access to technical and career education. Fifty-eight percent 
of Hoosier jobs are classified as ``middle-skilled,'' requiring 
more than a high school diploma but less than a college degree. 
At the same time, only 47 percent of Hoosiers currently qualify 
as, ``middle skilled.''
    According to the latest jobs report from the Bureau of 
Labor Statistics there are roughly 6 million job openings in 
our country. At the same time, the labor force participation 
rate among those 25 to 54 is still more than two percentage 
points below where it was at the beginning of 2008. We need to 
find a way to connect these workers with good-paying jobs that 
are and will become available which the data shows are often 
technical jobs that require certifications.
    So my first question for you, Dr. Sands, as you direct an 
Advanced Technological Education Program, do you have protocols 
in place to enroll those who are currently unemployed to fill 
middle-skilled job openings in your area? Can you describe 
that?
    Dr. Sands. Yes. We have several different programs. I can 
highlight one program. We had a program last year where we 
worked with returning veterans, and basically, it was 
completely designed around short-term credentialing. So 
basically, we had a cohort of 12 veterans. By the way, 11 
finish the program and 10 found employment after completing 
this program. But, you know, we have to change our traditional 
programs in many cases to reach those types of students. So 
they were able to finish this program in a 12-week period, 
again, work as a cohort.
    It was almost the perfect program because a lot of these 
students that were veterans already had security clearances, 
which are really critical in the cybersecurity field, so we 
were really leveraging, you know, a national resource that was 
really sort of untapped. And we've run a second type of program 
since then that's also been very, very successful.
    But I think in many cases what we need are programs that 
are based on stackable credentials, so there are many entrance 
and exit points, and curriculums that are designed around the 
requirements for those industry certifications. So not only are 
they gaining academic credentials, but they are--you know, like 
some of the other members have testified, they're also based 
around industry certifications and the skills and knowledge 
required with the industries.
    Mr. Banks. Great. Thank you. Mr. King, will your task force 
report on expanding apprenticeships include strategies on 
connecting prime-age workers that have dropped out of the labor 
force with apprenticeship programs and skilled technical 
positions?
    Mr. King. Yes, that is a major goal within expanding 
apprenticeship is not just for, you know, feeder system out of 
schools but even those--I have a statistic here that shows that 
there are about 5.5 million disconnected people between the 
ages of 16 and 24 who are currently out of school and not 
working, and so the key is to--you know, how do we get those 
individuals involved and teaching them more about the truth and 
reality of the opportunities and also including industry-
recognized credentials where you can attain those credentials 
without having to go through a four-year program or even a two-
year program. And as you earn the credentials, you can then 
articulate those into college pathways if your heart desires. 
So yes, with the industry-recognized credentials, it makes 
attaining these jobs much more accessible to these individuals 
that you're speaking of, yes.
    Mr. Banks. Thank you very much. Thanks for being here. I 
yield back.
    Mr. Marshall. [Presiding] The Chair recognizes Ms. Rosen 
for five minutes.
    Ms. Rosen. Thank you. I want to thank you all for being 
here today. And I know Chairwoman Comstock isn't here, but I 
want to thank her because, this week, a bill that I originated, 
Building Blocks of STEM and Code Like a Girl Act, were actually 
passed out of this committee and voted on unanimously in the 
House Tuesday night. And so, as a woman who's a former computer 
programmer, I am especially interested in young girls learning 
to code, and the Building Blocks of STEM does what you guys are 
doing, helping teachers in the classroom with curriculum and 
training and scholarships and education. So I thank this 
subcommittee for moving that forward and then the whole House 
and everyone who worked with me on that because we got 
something done this week in this space.
    So I want to talk a little bit about community colleges, 
local businesses, how we create those public-private 
partnerships. You know, when I'm in Nevada, I ask my local 
businesses, just like you said, to show kids a pathway to work 
for them for a good job in their company, whatever that is, 
whether it's in elementary school, junior high, or high school 
and to engage with those kids, Boys and Girls Clubs, wherever 
it makes sense for their business because we know--I know that 
the fear of data and analytics, it's really that fear I'm not 
smart enough to analyze this or see a computer or think about 
data is the barrier to success.
    And I had the opportunity to participate in some STEM 
roundtables with colleges--kids at the--or students at the 
College of Southern Nevada and community college, and we know 
that we're not funded so well there. So I guess I want to ask 
all the panelists. What can we do through the--if it's not NSF 
maybe through the Department of Education or the Department of 
Labor to reach out with our community partners like you're 
doing in a broader way to overcome this fear of data and 
analytics and show people a pathway to these kinds of jobs. You 
know, if you watch TV, you think there's about three jobs, 
police, firemen, right, and so they're not getting exposed to 
some of these really interesting, amazing jobs. So could you 
speak to some of that?
    Dr. McCrary. Briefly. I think a couple things that we have 
to do is start also at the K-12 level and start with both 
parents and counselors. Particularly for the skilled technical 
workforce, we have to remove the stigma about these jobs, that 
these are actually good-paying jobs, as well as showing multi-
ramps or onramps toward careers.
    As one of my colleagues says, it's not just going to four-
year schools or bust but also there are a lot of other 
opportunities in those jobs. So I think one is working with 
high school counselors, working with parents. I will say 
that's--what I said earlier in--some of the technical 
organizations have held trials working with parents, talking 
with parents who may be--their students may be first-generation 
college, so talking to them about these careers.
    I think the other thing is building partnerships, and so 
that's where the National Science Board and NSF can facilitate 
that conversation between community colleges, technical 
schools, four-year schools and even trade union organizations 
to talk about----
    Ms. Rosen. Right.
    Dr. McCrary. --the opportunities that are there and the 
ability for people to manage their careers throughout the 
spectrum.
    Ms. Rosen. Fantastic. Anyone else want to address it?
    Dr. Bardo. Please. We are in the process of amalgamating a 
technical college within a research university, but we also are 
in the process of restructuring our College of Education to be 
the primary face that works with the technical college because 
we really do believe that there's a combination there of 
working with the teachers, working with the schools, and 
starting young. But the technical college in Kansas has the 
authority and the funding to work in the schools----
    Ms. Rosen. Right.
    Dr. Bardo. --which we as a research university don't. At 
the same time, we've got capacity to prepare the teachers for 
the changes that are coming.
    Ms. Rosen. Right. I think that's where it starts, with the 
teachers in the classroom.
    Dr. Bardo. Right. But we've been very excited because one 
of the projects--aircraft is designed throughout the world with 
the software package called CATIA and working with CATIA--
actually with their parent company--we've been able to get that 
software into the schools for free. And so when a student comes 
to the university, they've already been programming in the core 
language that is being used in industry.
    Ms. Rosen. Fantastic, thank you. I really appreciate all 
the work you're doing. It's so important and empowering our 
teachers to realize that there's pathways for kids to learn 
these skills and all kinds of great ways is the best way to do 
it, so thank you. I yield back my time.
    Chairwoman Comstock. Great. And I now recognize Mr. Tonko 
for five minutes.
    Mr. Tonko. Thank you, Madam Chair. And welcome to our 
guests. I would hope just listening to some discussion, that 
while we advance this effort for skills-based programs, we need 
to keep that balance going with higher ed so that we don't 
abandon one against another. They're both vitally important. So 
that concern is one that I think needs to be addressed head-on.
    I recently met with leaders at Hudson Valley Community 
College, HVCC, in my capital district region of New York, an 
institution that is making a difference on the issue of 
workforce needs and in advanced manufacturing. They shared 
insights from local business leaders and employers expressing 
the need to train more people in advanced manufacturing in 
order to close the skills gap both in our region and certainly 
in our country.
    By 2024 the--New York State will have an estimated 168,730 
new jobs open in advanced manufacturing and many more obviously 
across the country. With an aging workforce and rising demand 
for the skills, we need to be preparing our students, our 
schools, and our industries now to ensure we have workers ready 
to enter these emerging fields. HVCC is taking a visionary step 
forward in this space, creating the Gene F. Haas for Center for 
Advanced Manufacturing Skills known as CAMS, which will allow 
the college to double its enrollment in the advanced 
manufacturing technology, their AOS degree program, and meet 
the urgent and growing demand for skilled workers in our 
region.
    CAMS will be a one-stop hub for employee training and 
recruitment. The building's design provides corporate partners 
with access to offices and conference space adjacent to faculty 
offices, student classrooms, and labs. Facilities will be 
available for business demonstration purposes, shared training 
activities, meetings, and events that connect the college to 
its workforce partners more than ever before.
    HVCC is also developing innovative programs for student 
workforce training. For example, their Manufacturing Technology 
Pathways program allows students to take short noncredit 
skills--skills-based courses leading to local certifications 
that will help them develop a career ladder of stackable 
credentials for students that are valued by manufacturers.
    They also offer an intensive boot camp training program 
providing a pathway to entry into careers in advanced 
manufacturing or the options of taking credit classes. I've 
also been told that, currently, there is more demand by 
employers for graduates of HVCC's advanced manufacturing 
technician program than there are graduates. It's a great thing 
to know we're training people for career opportunities that 
exist today. I've been at the graduations, I've seen the 
interest, I've seen the passion, and it's a powerful statement 
made by these young career-path-bound people.
    Local companies such as Global Foundries, GE, Watervliet 
Arsenal, and Simmons Machine Tool Company compete to hire these 
graduates, and there is still a shortfall. This speaks highly 
to the program but also informs us of the urgency of closing 
this skills gap.
    So to all panelists, can community colleges fill a vital 
role in the community of closing skills gaps? Is there a 
special relationship that they can have with--that closes the 
gap between industry and higher ed? Anyone?
    Dr. McCrary. Well, you--one of the things that you pointed 
out, the balance between the skilled technical workforce, 
apprenticeships, and also higher education, if you think about 
in the STEM fields, 49 percent of those people who entered the 
STEM fields come through community colleges, and so community 
colleges provide those opening doors and a path whether you 
want to go on for a four-year education or go in for, say, a 
higher technical skilled workforce degree.
    I think in those areas that's where the community colleges 
can really link with the four-year institutions, as well as 
with the trade organizations to be those pathways for those 
skilled technical workers and to be able to fill the shortages.
    Mr. Tonko. Dr. Sands?
    Dr. Sands. Yes, I'd like to also speak to this. I think 
community colleges play a special role in that, so community 
colleges can provide a second chance so, you know, someone 
didn't--you know, failed a chance to go on to a university many 
times come back through the community colleges, get 
credentials, get in the workforce, and many of those students 
go on to finish undergraduate and graduate degrees. But we also 
get returning--we've had in our program people to return with 
graduate degrees, they come back and they are either changing 
careers or they're trying to upgrade their skills. So I think 
community colleges are well-placed to provide those types of 
options.
    And, you know, when I go to different things within my 
community, I mean, whether it's at a hospital or an auto repair 
place or whatever, most of the times I asked where they're 
getting their students. And nine out of ten times, you know, I 
hear it's someone that came through, you know, the neighborhood 
community college. So I think, you know, they play a vital role 
in this.
    Part of the thing is in investing so that they have the 
tools and the technology that represent the greatest impact and 
represent what industries actually need because I think that's 
the biggest challenge we have sometimes is that, you know, a 
lot of these things are changing at a rapid pace and community 
colleges don't always necessarily have the funding to represent 
those types of technologies and the types of skills that are 
necessary to meet changing areas of technology.
    Mr. Tonko. Yes. Dr. Bardo, were you going to say something?
    Dr. Bardo. Yes--
    Mr. Tonko. Mr. King, too?
    Dr. Bardo. Yes, just very quickly. One of the really big 
issues that we are seeing is we do so much applied research 
that we're seeing five and ten years out what the advanced 
manufacturing is going to look like, and it's going to be very 
different than it is today. We're working with major 
corporations primarily from the Midwest but really all over the 
world, and the changes that are coming are dramatic. So it's 
not just the funding for today and it's not just getting them 
into the job today. One of the issues we're seeing in Wichita 
is people aren't silly. They look and say, ``Well, wait a 
minute, in five years, we're not to be making aircraft the way 
were making them today. We're not going to be designing 
fuselages the way we're doing today, so why should I spend all 
that time preparing when I know that my job's going to be 
gone?''
    So having a long-term view where you give people a ladder 
to success so that it's not just today's job, but if you take 
today's job, we're going to continue working with you and help 
you move as advanced manufacturing moves.
    Mr. Tonko. Thank you.
    Mr. King. Yes. I think community colleges are extremely 
important. Right now, NIMS, we're working with Raytheon, which 
is a large missile defense company with an apprenticeship 
program that we're planning to scale across the entire 
organization. And--but we're working in Tucson first as a 
launch and we're actually--we brought--we're bringing the 
college and Raytheon together with NIMS as a consulting piece 
to work together. So Raytheon and the local college, they're 
now going all the way--they're planning to go all the way into 
the middle schools to start giving Raytheon hats. I mean, you 
know, and the community college will be working with them on 
the recruiting piece. So it can't be done with just one piece. 
It has to be done together. But putting skin in the game, we 
have Raytheon and the college working together. I think that's 
key.
    Mr. Tonko. Thank you. I yield back and I thank the Chair 
for allowing me to go well past, but we had a lot of people 
anxious to answer, so----
    Chairwoman Comstock. Yes.
    Mr. Tonko. --thank you, Madam Chair.
    Chairwoman Comstock. No--and I appreciated the information, 
too, so thank you.
    And I now recognize Mr. Hultgren for five minutes.
    Mr. Hultgren. Thank you, Chairwoman. I appreciate you all 
being here. This is a very important hearing and it's something 
that I'm passionate about.
    As a Member of this Committee, I see sparking an interest 
in young people in STEM fields as a vital part of what we need 
to be doing and certainly what our nation needs in order to 
remain competitive going into the future. More importantly than 
that, I do think discovery and innovation are part of our DNA 
as a nation.
    Back in my district I've had the privilege of starting a 
STEM scholars program where I meet with about 30 young people, 
high-schoolers from around my district. I represent seven 
counties just outside of Chicago, and this is our second year 
of having our STEM scholars. And I meet with them once a month. 
I'm going to be with them this Saturday for a couple of hours. 
We go to different parts around northern Illinois to see how 
they can apply STEM education and STEM passion in careers right 
in our area.
    We're so fortunate to have some great laboratories like 
Fermilab and Argonne, but we have some amazing companies that 
are doing some really cool work as well. And every place I go 
people are looking to hire more engineers, more programmers, so 
we need to keep figuring out ways to spark that.
    I asked them if they had any questions for you all. I hope 
it's all right. I'm going to throw out some questions from my 
STEM scholars and see what your thoughts are. One of the 
scholars, Akin from Oswego, stressed the importance of hands-on 
learning and the effects that internships for high school 
students can have. These are often hard to find and take a 
company that is willing to host. His school can also give 
credits for these internships. How can we measure the success 
of this kind of career exposure at a younger age, and how can 
we improve the relationship between businesses and schools to 
develop these opportunities?
    Dr. McCrary. I'll give you one example, and this is at the 
four-year level because there's a concern even at the four-year 
level that many of our students, even our engineering students 
are very good from a book point of view but they don't know the 
difference between a Phillips head screwdriver and a regular 
screwdriver.
    Mr. Hultgren. I struggle with that, too, but----
    Dr. McCrary. One program is we're working with industry is 
we're working with Northrop Grumman. Morgan State University is 
located in the Baltimore/Washington region. Part of that 
industry is national security. They have a program called cyber 
warriors, and what they have done is they're working with our 
students. They have them do hands-on coding. Actually do mock 
attacks on systems and--so that our students can get that 
hands-on, plus coupled with internships. You know, when I came 
along--I won't say how long ago--you could come out and not 
have an internship during the summer, you'd go work for a 
company, and they'd say you can get up to speed in two years. 
But most businesses nowadays are out of business in two years 
if they can't have an employee who hits the ground running.
    And so also with many of our companies, as well as 
government partners like the Navy, we work very early on, 
freshman coming in and getting internships and getting hands-on 
experience, coupled with their formal learning makes a product 
that comes out the door that both industry and government 
wants.
    Mr. Hultgren. That's great. One of my STEM scholars from 
our first year was a high school student but was also part of a 
cyber warrior team through his high school where they were 
doing, like you said, these types of mock attacks but also 
learning from it. And I talk about it with my own kids. I've 
got four kids, but my younger guys are 13 and 16. Whenever they 
travel with me, they're my tech support team, so whenever I've 
got a problem or question with my technology, they're the ones 
to answer.
    Let me get through another question quick. Another student, 
Taylor, who goes to school in Elgin, had some questions about 
your experiences as being mentors. How willing are you to take 
on a mentee, and how many are you able to work with? Have you 
turned anyone down? Also, how valuable are these experiences to 
you as a mentor?
    I would throw it out maybe to one of the other panelists if 
anybody has a thought on being a mentor.
    Dr. Sands. You know, the way we sort of deal with that is 
that we have a couple different groups on campus that 
specifically serve as mentors.
    Mr. Hultgren. Right.
    Dr. Sands. So we have Women in Technology, and we basically 
have about 60 ex-graduates of the institution, and we pair them 
up with current students for mentorship, so it really expands 
our capacity. And we have that in several other areas.
    And one of the other things I'd mention--you mentioned the 
national labs. We work with Argonne National Labs and, you 
know, they host an annual competition that students are able to 
get hands-on experience, but they have a group of businesses 
that work with the participants and provide mentorships and 
trips to their facilities--
    Mr. Hultgren. Great.
    Dr. Sands. --and--you know, and so on.
    Mr. Hultgren. Fantastic.
    Dr. Bardo. The--one of the things we learn from the beta 
test that we completed is that the students are pretty excited 
about being involved in a real project in a real business.
    Mr. Hultgren. That's right.
    Dr. Bardo. And what the business told us--actually, what 
the V.P. in charge of that division told us was that it gave a 
new life to many of the long-term employees, that they really 
felt that having the young person there changed their 
perspective as well. And so they had a reverse mentoring day 
every so often where the student would mentor the older worker 
as well.
    Mr. Hultgren. Great.
    Dr. Bardo. And so mentoring within a formal organization, 
actually our experience has been that has been a tremendous 
boon both to the organization and to the student.
    If I might mention, one of the things that we heard from 
industry is that if you hire a new engineer with a bachelor's 
degree it takes approximately two years for that engineer to 
contribute to your bottom line, which is why you'll hear 
industry say there are no engineers available.
    Mr. Hultgren. Right.
    Dr. Bardo. Well, there are, but they're young ones----
    Mr. Hultgren. Right.
    Dr. Bardo. --right? And so the--what we found is, as we put 
students through the apprenticeship program, that it cut the 
time to profitability for the business to six months, so it had 
a huge impact--
    Mr. Hultgren. That's great.
    Dr. Bardo. --on the bottom line of the business. It had a 
huge impact on the workers who were working with the students, 
and it really changed the quality of the students' education.
    Mr. Hultgren. That's fantastic. I'm out of time. I have 
more questions from my STEM scholars. I may follow up in 
writing if that's all right to get answers to my STEM scholars. 
One last thing I'll say is quite a few of my STEM scholars are 
part of robotics. FIRST Robotics has been amazing. This idea of 
gracious professionalism, teaching young people, I think that's 
something we need to learn here in Congress about the idea of 
gracious professionalism, but so excited again about the mentor 
relationship that we see through robotics but so many other 
things and really encouraging, Dr. Bardo, to hear about how it 
is cutting down that time it takes for someone to add real 
value on the ground, so thank you. Thank you all for your work. 
I look forward to figuring out how we can work together as well 
for what we know is the right thing for America.
    With that, thank you, Chairwoman. I yield back.
    Chairwoman Comstock. Thank you. And thank you, Dr. Bardo, 
for that point. That is really interesting and that really kind 
of goes to one of the things that we know in the future 
economy. You have to be lifelong learners. So for the mentors 
to also be getting that push from the mentees is exciting.
    And I now yield five minutes to Mr. Beyer.
    Mr. Beyer. Thank you, Madam Chair, very much. And thank you 
all for being here.
    Dr. McCrary, in his recent report on America's skilled 
technical workforce the National Academies recommended that the 
National Science Foundation commission a study on how countries 
with, quote, ``more proficient workers'' have developed their 
skilled technical workforce. So we all know about the German 
experience with apprenticeships. So I lived in Switzerland for 
four years, and one of the most interesting pieces was that, 
you know, 70 percent of the kids were going into the technical 
vocational training rather than the college-bound. And they had 
the Fachhochschule, which is essentially their equivalent of 
the community colleges. And what's fascinating every year was 
that they--there were more jobs than there were trained workers 
coming out of these apprenticeship programs. They're training 
people for the skills that were needed in the workforce.
    So the key question that we asked overseas and which they 
tried to ask the Department of Labor through the Obama and 
early Trump Administrations was how do we change the culture 
here to make that happen?
    Dr. McCrary. I think we have to change the culture is first 
we have to, again, as I said earlier, have to change the 
stigma. We have to say that very early on for a number of folks 
that there are opportunities besides just the traditional 
linear four-year track. Places like Maryland, places like South 
Carolina have started very successfully apprentice-based 
programs. And what they have done is they've gotten into the 
schools very, very early, talked to people about the different 
opportunities.
    I'll give you a good example. In Baltimore city, right now, 
there's about anywhere between 1,500 to maybe 2,000 throughout 
the state electrical workers that--jobs need to be filled, 
according to IBEW about 100,000 across the Nation. But many of 
these jobs involve coding, and many of these jobs involve 
understanding circuit analysis. In some sense, the electrician 
that we knew years ago is not the same today. So what they have 
done is gone out to the schools and talked about how exciting 
these jobs can be, how they can put a number of things 
together.
    And getting back to what you said about the apprentice-
based education, one of the things our task force is going to 
be looking at is looking at that apprentice-based model and see 
how that compares with what we can do here, some of the 
programs that are going on in some of the states now, and how 
can we adapt parts of that to the economy here in the United 
States.
    Mr. Beyer. Thank you very much. Dr. Sands, you have this 
community college background, which is terrific. You see more 
and more states little by little adopting the free community 
college model. It was led first I guess by a Republican Mayor 
in Memphis and then by a Republican Governor in Tennessee. I 
think the Republican Governor of Maryland is moving in that 
direction pretty quickly. Is this--by making that 13th and 14th 
grade free, does this help that? Do we still need to have a 
cash investment in it on behalf of the individual to make the 
education worthwhile? What's your perspective?
    Dr. Sands. I think it's more critical than ever. I mean, we 
look at the cost of universities and colleges across the 
country, and community colleges, even at the current rates, are 
really the only option that a lot of these students have. So, 
you know, any help that community colleges have in lowering 
tuition especially--I mean, I can just mention in the State of 
Illinois with our financial issues, the need for more 
affordable education is more important than ever.
    Mr. Beyer. Very cool. And, Dr. Bardo, you talked about the 
mismatch in terms of where the apprenticeship programs have 
grown up. You know, we do great in Connecticut and in Virginia 
and maybe not so well in Louisiana and Arkansas. What's the 
long-term implication of having this disparity?
    Dr. Bardo. I think the fundamental issue is that education 
changed a lot, and we in higher education have been slow to the 
table to get to the notion that you have to have experience and 
apply the knowledge that you learned to know--when I was in 
college, when you were in college, to pass a test, you know, 
you got an A, you were good. Then it became, okay, well, 
everybody has to have an internship, some kind of an 
experience. And what we're finding today is that really deep 
understanding of whatever you're studying, if it's English or 
it's engineering, really requires you to look beyond the 
classroom. And I think that not having that happening is really 
hurting our workforce, it's hurting our national 
competitiveness, and it's hurting the competitiveness of those 
states that aren't taking this seriously and moving forward.
    Mr. Beyer. Great. Thank you very much.
    Madam Chair, I yield back.
    Chairwoman Comstock. I thank the witnesses for their 
testimony and the Members for their questions, and now the 
record will remain open for two weeks for additional written 
comments and written questions from Members, including some of 
those that may be from the STEM scholars. That sounded very 
interesting.
    And I really thank you for the good work you're doing. I 
think we are really going to be needing a sea change in how we 
approach these jobs, and you've really mapped out for us some 
ideal approaches on how we can really change this up for the 
better.
    And the great thing about a lot of this is we're talking 
about people who aren't going to have to get hundreds of 
thousands of dollars in debt for going to college for a degree 
that may not even be what they wanted. You know, if we really 
start working with these kids at a young age, have them 
understand these jobs are available, really have them hands-on 
experience and see the whole career path and opportunities that 
are available to them, they can both get into areas that will, 
you know, pay for themselves, as well as really be what we need 
in the economy, so I just think there's a lot of exciting 
synergies here that we've just started to scratch the surface 
of, but you've really given us a great path here.
    So I know we were already talking up here on some possible 
legislation in this area and how we can continue to support 
your efforts, so thank you for all you're doing. And we're 
adjourned.
    [Whereupon, at 10:50 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions
                   
Responses by Dr. Victor R. McCrary

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Dr. John Sands

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Mr. Montez King

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. John Bardo

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>
</pre></body></html>
